Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




  CMS HAS NOT PROMULGATED
  REGULATIONS TO ESTABLISH
  PAYMENT REQUIREMENTS FOR
      PROSTHETICS AND
     CUSTOM-FABRICATED
         ORTHOTICS




                    Daniel R. Levinson
                     Inspector General

                      October 2012
                     OEI-07-10-00410
EXECUTIVE SUMMARY: CMS HAS NOT PROMULGATED REGULATIONS
TO ESTABLISH PAYMENT REQUIREMENTS FOR PROSTHETICS AND
CUSTOM-FABRICATED ORTHOTICS
OEI-07-10-00410

WHY WE DID THIS STUDY

Section 427(a) of the Medicare, Medicaid, and SCHIP Benefits Improvement and
Protection Act of 2000 (BIPA) prohibits Medicare payments for prosthetics and
custom-fabricated orthotics unless the items are (1) furnished by a qualified practitioner
and (2) fabricated by either a qualified practitioner or a qualified supplier. Section 427(b)
of the BIPA required the Secretary to promulgate regulations to implement the
requirements at section 427(a) of the BIPA. As required by 42 CFR § 424.57(c)(12),
Medicare suppliers must also maintain documentation supporting that prosthetics and
custom-fabricated orthotics were delivered to beneficiaries. In 2010, the Centers for
Medicare & Medicaid Services (CMS) allowed $276 million in Medicare payments for
257,797 prosthetic and custom-fabricated orthotic claims (excluding accessories,
additions, and other supplemental prosthetic and orthotic items).

HOW WE DID THIS STUDY

We selected a sample of 1,135 Medicare-allowed claims for prosthetics and
custom-fabricated orthotics in 2010 to determine whether the claimed items were
(1) furnished by qualified practitioners, (2) fabricated by either qualified practitioners or
qualified suppliers, and (3) met delivery documentation requirements. We interviewed
CMS staff regarding the implementation status of the BIPA payment requirements.

WHAT WE FOUND

To date, CMS has not promulgated regulations related to BIPA payment requirements for
practitioner and supplier qualifications for prosthetics and custom-fabricated orthotics.
CMS used other legal authorities that limit who can be paid for prosthetics and custom-
fabricated orthotics; notwithstanding, in 2010, Medicare allowed nearly 1,000 claims
inappropriately. Despite the lack of regulations, most claims were allowed for prosthetics
and custom-fabricated orthotics furnished and/or fabricated by practitioners and/or
suppliers that were licensed, certified, or accredited. Finally, Medicare inappropriately
allowed 12 percent of claims for prosthetics and custom-fabricated orthotics that did not
meet Federal requirements for delivery documentation.

WHAT WE RECOMMEND

We recommend that CMS (1) promulgate regulations to implement the BIPA payment
requirements, (2) ensure that suppliers maintain delivery documentation that meets
Federal requirements, and (3) take appropriate action to address inappropriately allowed
claims identified in the population related to payment edits and in our sample related to
delivery documentation. CMS concurred with all three recommendations.
TABLE OF CONTENTS

Objectives ....................................................................................................1
Background ..................................................................................................1
Methodology ................................................................................................6
Findings...................................................................................................... 11
           CMS has not promulgated regulations related to payment
           requirements for practitioner and supplier qualifications for
           prosthetics and custom-fabricated orthotics................................... 11
           CMS has used other legal authorities that limit who can be paid
           for prosthetics and custom-fabricated orthotics; notwithstanding, in
           2010, Medicare allowed nearly 1,000 claims inappropriately. ......12
           Despite the lack of regulations, most claims were allowed for
           prosthetics and custom-fabricated orthotics furnished and/or
           fabricated by practitioners and/or suppliers that were licensed,
           certified, or accredited ...................................................................12
           Medicare inappropriately allowed 12 percent of claims for
           prosthetics and custom-fabricated orthotics that did not meet
           Federal requirements for delivery documentation .........................13
Conclusion and Recommendations ............................................................16
           Agency Comments and Office of Inspector General Response.....17
Appendixes ................................................................................................18
           A: States That License Prosthetists and Orthotists .......................18
           B: Specialty Codes Listed in Transmittal 656 ..............................19
           C: Detailed Sampling Design and Response Rates.......................20
           D: Specialty Codes for All “Other” Practitioners and
           Suppliers ........................................................................................21
           E: Actions Taken That Limit Who Can Be Paid for Prosthetics and
           Custom-Fabricated Orthotics .........................................................22
           F: Point Estimates, Sample Sizes, and Confidence Intervals........27
           G: Agency Comments ...................................................................29
Acknowledgments......................................................................................32
                  OBJECTIVES
                  To determine the extent to which:
                  1. the Centers for Medicare & Medicaid Services (CMS) has
                      implemented the payment requirements found at Section 427(a) of the
                      Medicare, Medicaid, and SCHIP Benefits Improvement and Protection
                      Act of 2000 (BIPA);
                  2. Medicare allowed claims for prosthetics and custom-fabricated
                      orthotics furnished and/or fabricated by unqualified practitioners
                      and/or suppliers; and
                  3. Medicare allowed claims for prosthetics and custom-fabricated
                      orthotics that lacked delivery documentation that met Federal
                      requirements.

                  BACKGROUND
                  Prosthetics and orthotics are covered under the Durable Medical
                  Equipment, Prosthetics, Orthotics, and Supplies (DMEPOS) Medicare
                  benefit. 1 In 2010, CMS allowed $276 million in Medicare payments for
                  257,797 prosthetic and custom-fabricated orthotic claims (excluding
                  accessories, additions, and other supplemental prosthetic and orthotic
                  items). 2 Industry representatives have asserted that unqualified
                  practitioners and suppliers are furnishing and/or fabricating Medicare-paid
                  prosthetics and custom-fabricated orthotics. These representatives are
                  concerned that unqualified practitioners and suppliers, who lack necessary
                  training and education, are providing substandard custom-fabricated items
                  to Medicare beneficiaries. 3 Additionally, a 2000 Office of Inspector
                  General (OIG) report concluded that qualifications of orthotic suppliers
                  varied, with noncertified suppliers being the ones most likely to provide
                  inappropriate items and services. 4 OIG has not specifically reviewed the
                  qualifications of practitioners and suppliers of prosthetics and
                  custom-fabricated orthotics previously.


                  1
                    To be payable by Medicare, prosthetics and orthotics must be reasonable and necessary
                  for the diagnosis or treatment of an illness or injury or to improve the functioning of a
                  malformed body member. Social Security Act (SSA) § 1862(a)(1)(A); 42 U.S.C.
                  1395y(a)(1)(A).
                  2
                    Custom-fabricated items are individually fabricated over a positive model of the patient.
                  3
                    We conducted preinspection interviews with several industry representatives, who
                  expressed their opinions that enforcement of Medicare qualifications is lax, and that
                  many unqualified practitioners are fitting and fabricating prosthetics and
                  custom-fabricated orthotics.
                  4
                    OIG, Medicare Payments for Orthotics: Inappropriate Payments, OEI-02-99-00120,
                  March 2000.


CMS Has Not Promulgated Regulations To Establish Payment Requirements (OEI-07-10-00410)                     1
                  Federal Statutory Payment Requirements
                  Section 427(a) of the BIPA, enacted on December 21, 2000, added special
                  payment requirements for prosthetics and certain custom-fabricated
                  orthotics at section 1834(h)(1)(F) of the SSA (the BIPA payment
                  requirements). 5 This section prohibits Medicare payments for prosthetics
                  and custom-fabricated orthotics unless the items are (1) furnished by a
                  qualified practitioner and (2) fabricated by a qualified practitioner or a
                  qualified supplier at a facility that meets such criteria as the Secretary
                  determines appropriate. 6 Generally, Medicare qualifications are intended
                  to protect beneficiaries, promote high-quality care, and safeguard
                  Medicare funds by ensuring that only qualified individuals and health care
                  organizations furnish Medicare items and services. 7 Section 427(b) of the
                  BIPA required the Secretary to promulgate regulations to implement
                  Section 427(a) of the BIPA no later than December 21, 2001 (i.e., 1 year
                  after the date of enactment), using a negotiated rulemaking process. 8
                  Qualified practitioners. The BIPA payment requirements define a
                  qualified practitioner as a physician or other individual who is:
                  •   a qualified physical or occupational therapist; 9
                  •   licensed in prosthetics or orthotics by the State in which the item is
                      supplied; 10 or
                  •   providing prosthetics or orthotics in a State that does not license
                      practitioners of prosthetics and orthotics and is specifically trained and


                  5
                    BIPA, H.R. 5601, 106th Cong. § 427(a) (2000), adding SSA § 1834(h)(1)(F), 42 U.S.C.
                  1395m(h)(1)(F). For purposes of this payment prohibition, “certain custom-fabricated
                  orthotics” is defined to mean only those custom-fabricated orthotics that require
                  education, training, and experience to custom fabricate and that are included in a list
                  established by the Secretary of the Department of Health and Human Services (the
                  Secretary) in consultation with appropriate experts in orthotics, including national
                  organizations representing manufacturers of orthotics. SSA § 1834(h)(1)(F)(ii);
                  42 U.S.C. 1395m(h)(1)(F)(ii). We refer to certain custom-fabricated orthotics simply as
                  custom-fabricated orthotics.
                  6
                    SSA § 1834(h)(1)(F)(i); 42 U.S.C. 1395m(h)(1)(F)(i).
                  7
                     71 Fed. Reg. 20754 (Apr. 21, 2006).
                  8
                    CMS is the agency that would promulgate regulations to implement the BIPA payment
                  requirements on the Secretary’s behalf.
                  9
                    Per 72 Fed. Reg. 66222, 66328 (Nov. 27, 2007), personnel qualifications in 42 CFR §
                  484.4 are applicable to all outpatient physical and occupational therapy services. See
                  also, CMS, Medicare Benefit Policy Manual, Pub. No. 100-02, ch. 15, §§ 230.1(B) and
                  230.2(B) (defining qualified physical therapist and qualified occupational therapist,
                  respectively).
                  10
                     If a practitioner (other than a physician, qualified physical therapist, or qualified
                  occupational therapist) supplies the item in a State that provides for licensing of orthotics
                  and prosthetics and the practitioner is not licensed by that State, under the BIPA payment
                  requirement, the practitioner would not be a “qualified practitioner” and, therefore, would
                  not be entitled to Medicare payment for the item.


CMS Has Not Promulgated Regulations To Establish Payment Requirements (OEI-07-10-00410)                      2
                       educated to provide or manage the provision of prosthetics and/or
                       custom-fabricated orthotics, and is certified by the American Board for
                       Certification in Orthotics, Prosthetics & Pedorthics (ABC) or the
                       Board of Certification/Accreditation, International (BOC), or is
                       credentialed and approved by a program that the Secretary determines
                       (in consultation with appropriate experts in prosthetics and orthotics)
                       has training and education standards that are necessary to provide such
                       prosthetics and orthotics. 11
                  See Appendix A for an overview of States that license prosthetists and
                  orthotists.
                  Qualified suppliers. The BIPA payment requirements define a qualified
                  supplier as any entity that is:
                  •    accredited by ABC or BOC, or
                  •    accredited and approved by a program that the Secretary determines
                       has accreditation and approval standards that are essentially equivalent
                       to those of ABC or BOC. 12
                  CMS Actions That Limit Medicare Payment for Prosthetics and
                  Custom-Fabricated Orthotics
                  CMS has established payment edits and implemented Medicare supplier
                  enrollment requirements that limit who can be paid for prosthetics and
                  custom-fabricated orthotics. 13 For example, CMS issued Transmittal 656
                  to establish a payment edit based on an existing supplier standard. 14 This
                  transmittal explains that, in States that license prosthetists or orthotists,
                  Medicare payments for prosthetics and custom-fabricated orthotics are
                  prohibited unless the furnisher is licensed by the State. 15 More
                  specifically, in States that license prosthetists and orthotists, Transmittal

                  11
                     SSA § 1834(h)(1)(F)(iii)(III). The Secretary has not issued guidance specifying which
                  programs, if any, meet the latter requirement found at SSA § 1834(h)(1)(F)(iii)(III).
                  12
                     In December 2006, CMS issued a document entitled Medicare New Deemed
                  Accreditation Organizations For Suppliers of Durable Medical Equipment, Prosthetics,
                  Orthotics And Supplies (DMEPOS) that lists the accrediting organizations for durable
                  medical equipment (DME) suppliers based on the quality standards. However, the
                  Secretary has not issued guidance specifying which programs, if any, are essentially
                  equivalent to those of ABC or BOC for the purposes of the BIPA payment requirements.
                  See footnote 19.
                  13
                     Payment edits are safeguards built into claims processing computer systems designed
                  to prevent payment for noncovered and/or not medically necessary services.
                  14
                     CMS, Medicare Claims Processing Manual, Pub. No. 100-04, Transmittal 656,
                  Change Request 3959 (revising CMS, Medicare Claims Processing Manual, Pub. No.
                  100-04, ch. 20, § 130.1). Accessed online at http://www.cms.gov on September 3, 2010.
                  15
                     Transmittal 656 is based on a CMS DMEPOS supplier standard, which requires that
                  suppliers furnish all Medicare-covered items in compliance with all applicable Federal
                  and State licensure and regulatory requirements. 42 CFR § 424.57(c)(1). See also
                  SSA § 1834(j)(1)(B)(ii)(I).


CMS Has Not Promulgated Regulations To Establish Payment Requirements (OEI-07-10-00410)                  3
                  656 directs suppliers to send a copy of their State licenses to the National
                  Supplier Clearinghouse (NSC) to ensure that the correct specialty code is
                  on file. The transmittal also directs that claims for prosthetics and
                  custom-fabricated orthotics submitted by a supplier in one of those States
                  be denied unless the claims contain one of the specialty codes listed in the
                  transmittal. 16 See Appendix B for the specialty codes listed in
                  Transmittal 656. Transmittal 656 also contains an attachment listing the
                  Healthcare Common Procedure Coding System (HCPCS) codes for
                  prosthetics and custom-fabricated orthotics affected by this payment edit.
                  CMS also implemented Medicare quality standards that require DMEPOS
                  suppliers to be accredited to furnish certain items and services, including
                  prosthetics and orthotics. 17 Quality standards are applied by independent
                  accreditation organizations designated by the Secretary. 18 CMS has
                  deemed 10 organizations to be accrediting organizations, 9 of which
                  (including ABC and BOC) are approved to accredit suppliers of
                  prosthetics and custom-fabricated orthotics. 19 Some suppliers, such as
                  physicians, physical therapists, occupational therapists, prosthetists, and
                  orthotists, are exempt from accreditation requirements. 20




                  16
                    Specialty codes indicate the specialty of the practitioner or supplier furnishing the item.
                  For States that have licensure requirements, Transmittal 656 limits payment for
                  prosthetics and custom-fabricated orthotics to items furnished by physicians, physical
                  therapists, occupational therapists, prosthetic personnel, orthotics personnel, pedorthists,
                  or medical supply companies with orthotics and/or prosthetics personnel as indicated by
                  their specialty codes; these codes are listed in Transmittal 656.
                  17
                    SSA § 1834(a)(20)(A) (paragraph 1834(a)(20) was added by Section 302(a) of the
                  Medicare Prescription Drug, Improvement, and Modernization Act of 2003,
                  P.L. 108-173). SSA § 1834(a)(20)(F)(i) (subparagraph 1834(a)(20)(F), directing
                  suppliers to submit evidence of accreditation by October 1, 2009, was added by
                  Section 154(b) of the Medicare Improvements for Patients and Providers Act of 2008,
                  P.L. 110-275).
                  18
                     SSA § 1834(a)(20)(A) and (B).
                  19
                     Because the legal basis for these accreditation requirements is the DMEPOS quality
                  standards, the accreditation requirements apply to a wide range of DMEPOS items, not
                  just prosthetics and custom-fabricated orthotics. Notwithstanding, the accreditation
                  requirements included in the DMEPOS quality standards overlap with the BIPA payment
                  requirements regarding qualified suppliers. See SSA § 1834(a)(20)(F)(i) regarding the
                  Medicare quality standards accreditation requirement. See also SSA § 1834(h)(1)(F)(iv)
                  on the subject of the BIPA payment requirement regarding qualified suppliers.
                  20
                     SSA § 1834(a)(20)(F)(ii). CMS, One-Time Notification, Pub. No. 100-20, Transmittal
                  710, Change Request 6566, dated May 21, 2010. See also Attachment A of Transmittal
                  710 for a full list of exempt suppliers.


CMS Has Not Promulgated Regulations To Establish Payment Requirements (OEI-07-10-00410)                      4
                  All suppliers are responsible for the delivery of Medicare-covered items to
                  beneficiaries and are required to maintain proof of delivery for 7 years. 21, 22
                  CMS guidance outlines documentation requirements for different methods
                  of delivery. Examples of delivery documentation include a delivery slip
                  signed by the beneficiary or beneficiary’s designee or, if the supplier uses
                  a shipping service, the service’s tracking slip and the supplier’s shipping
                  invoice. 23
                  Previous OIG Work
                  A 2000 OIG study found that miscoded orthotics resulted in $33 million in
                  excessive Medicare payments in 1998. 24 That study concluded that
                  qualifications of orthotic suppliers varied, with noncertified suppliers
                  being most likely to provide inappropriate devices and services. The study
                  also found that Medicare payments occurred even when the orthotics did
                  not meet the specifications billed, the orthotics were not custom
                  fabricated, or the parts billed were included in the base code for a larger
                  orthotic.
                  A 2011 OIG study examining questionable billings found that, in 2009,
                  Medicare inappropriately paid $43 million for lower limb prostheses that
                  did not meet local coverage determination requirements and that payments
                  for these items could have been prevented by using claims-processing
                  edits. 25 Further, Medicare paid an additional $61 million for lower limb
                  prostheses for beneficiaries who had not received an office visit or any
                  other services from their referring physicians in the last 5 years. The study
                  also found that 267 suppliers providing lower limb prostheses had engaged
                  in questionable billing practices. The study concluded that Medicare
                  contractors’ efforts to safeguard payments for lower limb prostheses
                  varied.




                  21
                     See 42 CFR § 424.57(a), stating that a DMEPOS supplier is an entity or individual,
                  including a physician or a Part A provider, which sells or rents Part B-covered items to
                  Medicare beneficiaries and meets the supplier standards outlined in 42 CFR § 424.57(c).
                  The individual practitioners who received payments for the claims in our sample were
                  also enrolled DMEPOS suppliers. Therefore, they must meet the supplier standards.
                  Because the individual practitioners were also enrolled DMEPOS suppliers, we use the
                  term
                  22
                        “suppliers” only when discussing our findings regarding delivery documentation.
                     CMS, Medicare Program Integrity Manual, Pub. No. 100-08, ch. 4, § 4.26. See also,
                  42 CFR § 424.57(c)(12).
                  23
                     Ibid., ch. 4, § 4.26.1.
                  24
                   OIG, Medicare Payments for Orthotics: Inappropriate Payments, OEI-02-99-00120,
                  March 2000.
                  25
                   OIG, Questionable Billing by Suppliers of Lower Limb Prostheses, OEI-02-10-00170,
                  August 2011.


CMS Has Not Promulgated Regulations To Establish Payment Requirements (OEI-07-10-00410)                      5
                  METHODOLOGY
                  We evaluated Medicare-allowed claims for prosthetics and
                  custom-fabricated orthotics in 2010 to determine whether the claimed
                  items were (1) furnished by qualified practitioners and (2) fabricated by
                  either qualified practitioners or qualified suppliers. We conducted
                  structured interviews with CMS staff regarding the status of the
                  implementation of the BIPA payment requirements. For a sample of
                  1,135 claims, we collected and reviewed documentation relating to (1) the
                  qualifications of the practitioners and suppliers that furnished and/or
                  fabricated the claimed items and (2) the delivery of the items. All
                  estimates in this report are projected to the specified population or
                  subpopulation of allowed claims excluding accessories, additions, and
                  other supplemental prosthetic and orthotic items (e.g., straps and joints
                  added to a prosthetic limb).
                  Scope
                  We determined whether practitioners and suppliers were qualified to
                  furnish and fabricate prosthetics and custom-fabricated orthotics using the
                  definitions in Section 427(a) of the BIPA, together with the requirements
                  in Transmittal 656 and the applicable quality standards. We analyzed
                  documentation submitted by the practitioners and suppliers that were paid
                  for the sampled claims. We did not determine the medical necessity of the
                  claimed items.
                  Population
                  Our population included 257,797 Medicare-allowed claims in 2010,
                  amounting to $276 million, for prosthetics and custom-fabricated
                  orthotics. The population excluded accessories, additions, and other
                  supplemental prosthetic and orthotic items. We obtained data from the
                  2010 DME Standard Analytical File from the National Claims History
                  File. From the Standard Analytical File, we constructed a population of all
                  allowed claims for prosthetics and custom-fabricated orthotics. CMS
                  provided a list of HCPCS codes for prosthetics and custom-fabricated
                  orthotics.
                  Sample Selection
                  We selected a stratified random sample totaling 1,135 claims. The sample
                  had 12 strata based on specialty code and allowed dollar amounts. See
                  Table 1 for a summarized sampling design; Appendix C provides a table
                  showing all 12 strata and details regarding the sample and population. We
                  designed the sample to produce estimates based on practitioner or supplier
                  specialty codes and allowed dollar amounts. As our data analysis
                  progressed, it became clear that the number of unqualified practitioners
                  and suppliers was too small for us to make reliable estimates based on


CMS Has Not Promulgated Regulations To Establish Payment Requirements (OEI-07-10-00410)     6
                   specialty codes and allowed dollar amounts as we had planned. Instead,
                   we produced overall estimates of the number and amount of payments to
                   unqualified practitioners and suppliers as defined in the BIPA payment
                   requirements.

         Table 1: Population and Sample Data for Medicare-Allowed Claims for Prosthetics
         and Custom-Fabricated Orthotics by Practitioner and Supplier Specialty, 2010

                                                                                 Allowed
          Specialty                                                                            Allowed Claims           Sample Size
                                                                                  Dollars

          Prosthetics: Medical Supply Companies                             $45,607,574                   28,465                  165

          Prosthetics: Individual Practitioners                            $118,473,931                   69,997                  335

          Prosthetics: All Other Practitioners and Suppliers*               $11,309,824                   10,023                  115

             Total Prosthetics:                                            $175,391,329                  108,485                  615

          Orthotics: Medical Supply Companies                               $24,950,710                   29,663                  145

          Orthotics: Individual Practitioners                               $46,099,212                   57,572                  220

          Orthotics: All Other Practitioners and Suppliers*                 $30,031,273                   62,077                  155

             Total Orthotics:                                              $101,081,195                  149,312                  520

             Overall Total:                                                $276,472,524                  257,797                1,135

          Source: OIG analysis of Medicare-allowed claims for prosthetics and custom-fabricated orthotics, 2010.

          *Transmittal 656 sets up these general groups of specialty codes, listing medical supply companies, prosthetic and orthotic
          personnel, physical and occupational therapists, and all other providers with specialty codes listed in Chapter 26 of the
          Medicare Claims Processing Manual. The “All Other Practitioners and Suppliers” category includes physical and
          occupational therapists and all other providers with specialty codes listed in Chapter 26 of the Medicare Claims Processing
          Manual. See Appendix D for a description of specialty codes for all “other” practitioners and suppliers.

                   We did not send requests for documentation to the practitioners and
                   suppliers for eight sampled claims because they were associated with
                   ongoing OIG investigations. As a result, we sent requests for 1,127 claims
                   to practitioners and suppliers.
                   Data Collection
                   For each sampled claim, we sent a letter requesting documentation to
                   support the certification, licensure, or accreditation of the practitioner that
                   furnished and the practitioner or supplier that fabricated the prosthetic or
                   custom-fabricated orthotic item. We also requested documentation to
                   support delivery of the item. We sent a second letter to practitioners or
                   suppliers that did not respond to our initial documentation request. We
                   attempted to contact practitioners or suppliers that did not respond to our
                   second request by telephone to verify that they were in business and that
                   we had the correct mailing address. In a last attempt to contact the
                   nonresponsive practitioners or suppliers, we sent a final certified letter
                   through the U.S. Postal Service.


CMS Has Not Promulgated Regulations To Establish Payment Requirements (OEI-07-10-00410)                                                 7
                  We received responses for 1,116 of the 1,127 claims for which we
                  requested documentation, a response rate of 98 percent. 26 Of the
                  11 sampled claims for which we did not receive documentation, 8 were
                  from practitioners or suppliers that received but did not respond to our
                  request for documentation, 2 were from suppliers that did not respond to
                  our request and whose operational status could not be confirmed, and
                  1 was from a supplier that was no longer in business. 27
                  Data Analysis
                  We determined whether the claimed prosthetic and custom-fabricated
                  orthotic items were (1) furnished by qualified practitioners and
                  (2) fabricated by either qualified practitioners or qualified suppliers.
                  Although CMS may make different determinations when promulgating
                  regulations to implement the BIPA payment requirements, for the purposes
                  of this evaluation, we made certain broad assumptions regarding parts of
                  the BIPA that are not yet defined. We assumed that the nine organizations
                  currently approved to accredit suppliers of prosthetics and custom-
                  fabricated orthotics will be approved once the BIPA payment requirements
                  are implemented. We did not make any assumptions about the criteria the
                  Secretary will determine to be appropriate for facilities at which
                  prosthetics and custom-fabricated orthotics are fabricated.
                  Determination of Whether Practitioners and Suppliers Were Qualified. In
                  the 38 States that do not license prosthetists and orthotists, we considered
                  items to have been furnished or fabricated by unqualified practitioners or
                  suppliers if:
                  •    the furnisher (1) was not a physical or occupational therapist or a
                       physician, or (2) did not have ABC or BOC certification on the date of
                       the claim; 28 or
                  •    the fabricator was not (1) a physical or occupational therapist or a
                       physician, or (2) a practitioner that had ABC or BOC certification on




                  26
                     We selected a sample of 1,135 claims but sent requests for documentation for only
                  1,127 of those claims, as explained above. To calculate the response rate, we divided the
                  1,116 responses received by the total sample size of 1,135.
                  27
                     We referred these 11 nonresponding practitioners and suppliers to CMS for appropriate
                  action.
                  28
                     BIPA, H.R. 5601, 106th Cong. § 427(a) (2000), adding SSA § 1834(h)(1)(F), 42
                  U.S.C. 1395m(h)(1)(F). Under the BIPA payment requirements, a qualified practitioner
                  would also include an individual credentialed and approved by another program
                  designated by the Secretary. Therefore, if this provision is implemented, there may be
                  other programs that can credential and approve individuals to become qualified
                  practitioners.


CMS Has Not Promulgated Regulations To Establish Payment Requirements (OEI-07-10-00410)                   8
                       the date of the claim, or (3) a supplier that had accreditation from one
                       of the nine accrediting agencies on the date of the claim. 29
                  For claims from the 13 States that license prosthetists and orthotists, we
                  considered items to have been furnished or fabricated by unqualified
                  practitioners or suppliers if:
                  •    the furnisher (1) was not a prosthetist, orthotist, physical or
                       occupational therapist, or physician; or (2) did not have licensure in
                       the appropriate State on the date of the claim; or
                  •    the fabricator was not (1) a prosthetist, orthotist, physical or
                       occupational therapist, or physician who had licensure in the
                       appropriate State on the date of the claim; or (2) a supplier that had
                       accreditation from one of the nine accrediting agencies on the date of
                       the claim.
                  In some cases, practitioners or suppliers indicated that a furnisher or
                  fabricator was qualified but did not supply supporting documentation
                  (e.g., a practitioner indicated that he or she was licensed but did not
                  provide licensure documentation). In these instances, we contacted the
                  practitioner or supplier and requested the missing documentation a second
                  time. If the practitioner or supplier still did not provide the missing
                  documentation, we attempted to verify the practitioner’s or supplier’s
                  qualifications by independently researching publicly available State
                  licensure and/or certification and accreditation information online. States
                  and some certification and accreditation organizations maintain databases
                  of their licensees and members online. For example, if a practitioner
                  claimed to be licensed by the State of Texas, we checked the Texas
                  Department of State Health Services Web site to attempt to verify his or
                  her licensure. If a supplier claimed to be accredited by ABC, we checked
                  the ABC Web site to verify that supplier’s accreditation. If we neither
                  received documentation from the practitioner or supplier nor were able to
                  independently verify the information, we considered the furnisher or
                  fabricator unqualified.
                  Determination of Delivery Documentation Errors. In all States, we
                  considered a claim to be allowed inappropriately if the documentation
                  submitted did not meet Federal requirements for documentation of
                  delivery to the beneficiary. We determined claims to have been allowed
                  inappropriately if we did not receive any delivery documentation or if the



                  29
                    For purposes of the BIPA payment requirements, CMS has not issued guidance
                  specifying which programs, if any, have accreditation and approval standards that are
                  equivalent to ABC or BOC. However, for this evaluation, we consider accreditation from
                  any of the nine CMS-approved accrediting organizations to be sufficient.

CMS Has Not Promulgated Regulations To Establish Payment Requirements (OEI-07-10-00410)               9
                  documentation that was provided lacked a beneficiary or designee
                  signature. 30
                  Communication With CMS Staff
                  Throughout our data collection and analysis, we conducted structured
                  interviews and corresponded via email with CMS staff regarding: (1) the
                  status of implementation of the BIPA payment requirements, and (2) the
                  application of the requirements of Transmittal 656 and the Medicare
                  quality standards to the practitioners and suppliers in our sample of claims.
                  Limitations
                  Our analysis was limited to the information available in the claims data
                  and the documentation that we requested from the practitioners and
                  suppliers of the sampled claims. Therefore, we were unable to determine
                  whether the furnishers and fabricators identified in the documentation that
                  we received did indeed furnish and/or fabricate the prosthetic or
                  custom-fabricated orthotic. For example, if a claim in our sample was
                  billed by a licensed prosthetist, we requested documentation to support the
                  qualifications of the prosthetist listed on the claim. Some items claimed in
                  our sample were furnished by a registered assistant practicing under the
                  supervision of a licensed prosthetist or orthotist. We confirmed with CMS
                  staff that a registered assistant met the definition of a qualified practitioner.
                  It is possible that other items claimed in our sample were furnished by a
                  registered assistant not practicing under the supervision of a licensed
                  prosthetist or orthotist. However, if the licensed prosthetist or orthotist did
                  not inform us that the claimed item was furnished by the registered
                  assistant and simply provided documentation to support his own
                  qualifications, we had no way of determining that the registered assistant
                  furnished the item.
                  While we did not set out to review the payment edits based on specialty
                  codes in Transmittal 656, we noted that some claims in our sample were
                  from practitioners and suppliers with specialty codes not listed in
                  Transmittal 656. Our evaluation did not include determining why the
                  payment edits failed; therefore, we cannot determine why claims were
                  paid to practitioner and suppliers with specialty codes not listed in
                  Transmittal 656.
                  Standards
                  This study was conducted in accordance with the Quality Standards for
                  Inspection and Evaluation issued by the Council of the Inspectors General
                  on Integrity and Efficiency.

                  30
                    In cases in which the delivery documentation provided was a shipping receipt, the
                  claim was not determined to be inappropriately allowed despite the lack of a beneficiary
                  or designee signature.


CMS Has Not Promulgated Regulations To Establish Payment Requirements (OEI-07-10-00410)                  10
                  FINDINGS
                  CMS has not promulgated regulations related to
                  payment requirements for practitioner and supplier
                  qualifications for prosthetics and custom-fabricated
                  orthotics
                  Section 427(a) of the BIPA, enacted December 21, 2000, prohibits
                  Medicare payment for prosthetics and custom-fabricated orthotics unless
                  they are furnished by a qualified practitioner and fabricated by a qualified
                  practitioner or a qualified supplier at a facility that meets criteria
                  determined by the Secretary. Section 427(b) requires the Secretary to
                  promulgate regulations to implement section 427(a) of BIPA not later than
                  December 21, 2001, using a negotiated rulemaking process. To date, CMS
                  has not promulgated regulations to implement this requirement.
                  Beginning in 2002, CMS established a negotiated rulemaking committee
                  and held several meetings to attempt to reach consensus on the substance
                  of a proposed rule. 31 CMS set a deadline of 6 months, beginning with the
                  date of the first meeting (October 1, 2002), for the committee to complete
                  work on the proposed rule. 32 The final meeting of the negotiated
                  rulemaking committee was scheduled for July 2003 (i.e., more than
                  8 months after the first meeting), and the committee failed to reach
                  consensus. 33
                  In 2002, CMS stated that if the negotiated rulemaking committee was
                  unable to reach consensus, CMS would develop a proposed rule. 34
                  However, in October 2005, CMS indicated that it had terminated the
                  rulemaking process in June 2005, almost 2 years after the final meeting of
                  the negotiated rulemaking committee. 35 Thus, despite the BIPA mandate
                  to promulgate regulations to implement the BIPA payment requirements


                  31
                     See, e.g., 67 Fed. Reg. 48839 (July 26, 2002) (announcing the establishment of the
                  Negotiated Rulemaking Committee on Special Payment Provisions and Requirements for
                  Prosthetics and Certain Custom-Fabricated Orthotics and the dates of the first two
                  meetings) and 68 Fed. Reg. 38269 (June 27, 2003) (announcing the date of the final
                  meeting).
                  32
                     67 Fed. Reg. 13297 (March 22, 2002).
                  33
                     68 Fed. Reg. 38269 (June 27, 2003).
                  34
                     67 Fed. Reg. 13297 (March 22, 2002).
                  35
                     A proposed rule implementing Section 427(a) was listed in the semiannual regulatory
                  agenda, but CMS withdrew the item from its agenda in June 2005. See, e.g.,
                  69 Fed. Reg. 73119, 73168 (Dec. 13, 2004); and 70 Fed. Reg. 26817, 26871
                  (May 16, 2005) (providing a timetable for issuance of a proposed rule implementing
                  Section 427 of the BIPA). See 70 Fed. Reg. 64533, 64623 (Oct. 31, 2005) (indicating
                  that action on the proposed rule was completed because it was withdrawn).


CMS Has Not Promulgated Regulations To Establish Payment Requirements (OEI-07-10-00410)               11
                  no later than December 21, 2001, to date, no regulations have been
                  promulgated.

                  CMS has used other legal authorities that limit who
                  can be paid for prosthetics and custom-fabricated
                  orthotics; notwithstanding, in 2010, Medicare allowed
                  nearly 1,000 claims inappropriately
                  In lieu of implementing the BIPA payment requirements, CMS has used
                  other legal authorities that limit who can be paid for prosthetics and
                  custom-fabricated orthotics. 36 For example, based on the supplier
                  standards, CMS issued Transmittal 656, instructing its contractors to
                  implement payment edits based on specialty codes in the 13 States that
                  license prosthetists and orthotists. Notwithstanding, in 2010, Medicare
                  allowed 966 claims, totaling $776,154, for prosthetics and
                  custom-fabricated orthotics from practitioners and suppliers in the
                  13 States that license prosthetists and orthotists that did not have a
                  specialty code listed in Transmittal 656. Transmittal 656 states that claims
                  from practitioners and suppliers with specialty codes not listed in that
                  document should be denied payment. Therefore, these payments were
                  inappropriate.
                  Another approach CMS used, based on the quality standards, mandates
                  that all nonexempt DMEPOS suppliers attain accreditation. See Appendix
                  E for an overview of actions taken that limit who can be paid for
                  prosthetics and custom-fabricated orthotics.

                  Despite the lack of regulations, most claims were
                  allowed for prosthetics and custom-fabricated
                  orthotics furnished and/or fabricated by practitioners
                  and/or suppliers that were licensed, certified, or
                  accredited
                  Approximately 97 percent of Medicare-allowed claims (246,081 claims)
                  for prosthetics and custom-fabricated orthotics were for items furnished by
                  practitioners and/or fabricated by practitioners or suppliers that were
                  licensed, certified, or accredited per the BIPA definition of qualified
                  practitioners or qualified suppliers. The payments for these claims
                  amounted to $260 million in 2010. See Appendix F for 95-percent
                  confidence intervals and sample sizes for all estimates presented in this
                  report.



                  36
                    The limits established based on the other legal authorities do not fulfill the mandate to
                  promulgate regulations to implement the BIPA payment requirements.


CMS Has Not Promulgated Regulations To Establish Payment Requirements (OEI-07-10-00410)                     12
                  Medicare inappropriately allowed 12 percent of claims
                  for prosthetics and custom-fabricated orthotics that
                  did not meet Federal requirements for delivery
                  documentation
                  For 12 percent of claims, amounting to $13.6 million, suppliers failed to
                  provide documentation meeting Federal requirements to show that
                  prosthetics and custom-fabricated orthotics were delivered to
                  beneficiaries. These claims were either missing all documentation of
                  delivery, or lacked a beneficiary signature on the provided documentation.
                  As Table 2 indicates, claims for custom-fabricated orthotics were more
                  likely to lack delivery documentation. 37 Tables F-2 and F-3 in Appendix F
                  show the statistical tests supporting this analysis.
                  Table 2: Inappropriately Allowed Claims and Payments Because of Lack of
                  Delivery Documentation

                                                                     Percentage of Claims                 Inappropriate
                   Type of Claim
                                                                   Inappropriately Allowed                   Payments

                   Overall                                                                11.6*              $13,588,310

                   Prosthetics                                                              4.0               $4,771,226

                   Custom-Fabricated Orthotics                                             17.2               $8,817,084

                   *The weighted average of the inappropriately allowed rates for prosthetics and custom-fabricated
                   orthotics using the estimated proportion of population claims for each type of claim as weights.
                   Source: OIG analysis of Medicare-allowed claims for prosthetics and custom-fabricated orthotics, 2011.

                  Eight percent of claims had documentation of delivery that was
                  insufficient because it lacked a beneficiary’s or designee’s signature. A
                  beneficiary’s or designee’s signature acknowledges that the beneficiary or
                  designee received the item. For 3 percent of claims, we received a
                  response from the supplier, but the response did not include any
                  documentation to support the delivery of the item. Table 3 provides
                  estimates of the claims lacking beneficiary or designee signatures on
                  delivery documents or lacking delivery documents altogether.




                  37
                    The percentage of custom-fabricated orthotics claims lacking delivery documentation
                  was statistically higher than the percentage of prosthetics claims lacking delivery
                  documentation based on a Wald chi-square test of independence at the 95-percent
                  confidence interval.


CMS Has Not Promulgated Regulations To Establish Payment Requirements (OEI-07-10-00410)                                     13
                  Table 3: Inappropriately Allowed Claims and Payments Because of Lack of
                  Delivery Documentation by Type of Missing Documentation

                   Type of Missing                          Percentage of Inappropriately                 Inappropriate
                   Documentation                                         Allowed Claims                      Payments

                   Overall                                                                11.6              $13,588,310
                   Lacked Beneficiary’s or
                                                                                            8.3              $9,354,658
                   Designee’s Signature
                   Lacked Any Documentation To
                                                                                            3.3              $4,233,652
                   Support Delivery
                   Source: OIG analysis of Medicare-allowed claims for prosthetics and custom-fabricated orthotics, 2011.


                  “Other” practitioners and suppliers of custom-fabricated
                  orthotics, such as physicians, physical and occupational
                  therapists, and podiatrists, were most likely to lack delivery
                  documentation
                  “Other” practitioners and suppliers (i.e., physicians, physical and
                  occupational therapists, podiatrists, and orthopedic surgeons) of
                  custom-fabricated orthotics were most likely to lack delivery
                  documentation. 38 See Appendix D for a description of the specialty codes
                  for all “other” practitioners and suppliers.
                  As Table 4 shows, 40 percent of the “other” practitioners and suppliers of
                  custom-fabricated orthotics lacked delivery documentation, whereas less
                  than 4 percent of the medical supply companies and individual
                  practitioners lacked delivery documentation. 39 Tables F-2 and F-4 in
                  Appendix F show the statistical tests supporting this analysis.




                  38
                     Ten percent of “other” practitioners and suppliers who submitted claims for prosthetics
                  lacked delivery documentation, whereas 1 percent of medical supply companies and 4
                  percent of individual prosthetists lacked delivery documents. However, these differences
                  are not statistically significant and, therefore, “other” practitioners and suppliers of
                  prosthetics were not more likely to lack delivery documentation than the medical supply
                  companies or individual practitioners who submitted claims for prosthetics.
                  See Table F-2 in Appendix F for these point estimates and their confidence intervals.
                  39
                     The percentage of “other” practitioners and suppliers of custom-fabricated orthotics
                  lacking delivery documentation was statistically higher than both the percentages of
                  medical supply companies and individual practitioners of custom-fabricated orthotics
                  lacking delivery documentation at the 95-percent confidence interval.


CMS Has Not Promulgated Regulations To Establish Payment Requirements (OEI-07-10-00410)                                     14
                  Table 4: Percentage of Practitioners and Suppliers of Custom-Fabricated
                  Orthotics Lacking Delivery Documentation by Specialty

                                                                   Percentage of Providers Lacking
                   Specialty                                                                                  Claims in Sample
                                                                           Delivery Documentation


                   Overall                                                                           17.2*                     507

                   Medical Supply Companies                                                            3.2                     139

                   Individual Orthotists                                                               0.2                     219

                   “Other” Practitioners and Suppliers                                                40.1                     149

                   *The weighted average of the percentages for each specialty using the estimated proportion of population claims
                   for each specialty as weights.

                   Source: OIG analysis of delivery documentation for custom-fabricated orthotics, 2011.




CMS Has Not Promulgated Regulations To Establish Payment Requirements (OEI-07-10-00410)                                         15
                  CONCLUSION AND RECOMMENDATIONS
                  Section 427(a) of the BIPA, enacted December 21, 2000, prohibits
                  Medicare payment for prosthetics and custom-fabricated orthotics unless
                  they are furnished by a qualified practitioner and fabricated by a qualified
                  practitioner or a qualified supplier at a facility that meets criteria
                  determined by the Secretary. Section 427(b) requires the Secretary to
                  promulgate regulations to implement section 427(a) of BIPA not later than
                  December 21, 2001, using a negotiated rulemaking process. To date, CMS
                  has not promulgated regulations to implement this requirement. In lieu of
                  implementing the BIPA payment requirements, CMS has used other legal
                  authorities that limit who can be paid for prosthetics and
                  custom-fabricated orthotics. For example, based on the supplier standards,
                  CMS issued Transmittal 656, instructing its contractors to implement
                  payment edits based on specialty codes in the 13 States that license
                  prosthetists and orthotists. Notwithstanding, in 2010, Medicare allowed
                  966 claims, totaling $776,154, for prosthetics and custom-fabricated
                  orthotics from practitioners and suppliers in the 13 States that did not have
                  a specialty code listed in Transmittal 656. Another method, based on the
                  quality standards, mandates that all nonexempt DMEPOS suppliers attain
                  accreditation.
                  Despite the lack of regulations, approximately 97 percent of
                  Medicare-allowed claims for prosthetics and custom-fabricated orthotics
                  were for items furnished by practitioners and/or fabricated by practitioners
                  or suppliers that were licensed, certified, or accredited per the BIPA
                  definition of qualified practitioners or qualified suppliers. Medicare
                  inappropriately allowed an additional $13.6 million for prosthetics and
                  custom-fabricated orthotics that did not meet Federal requirements for
                  delivery documentation. “Other” practitioners and suppliers of
                  custom-fabricated orthotics, such as physicians, physical and occupational
                  therapists, and podiatrists, were most likely to lack delivery
                  documentation.
                  To ensure appropriate Medicare payments and beneficiary quality of care,
                  we recommend that CMS:
                  Promulgate Regulations To Implement the BIPA Payment
                  Requirements
                  Section 427(b) of the BIPA required regulations to implement the payment
                  requirements found in Section 427(a) to be promulgated no later than
                  December 21, 2001; however, CMS failed to do so. To comply with
                  Federal law and clarify who may be paid for prosthetics and custom-



CMS Has Not Promulgated Regulations To Establish Payment Requirements (OEI-07-10-00410)     16
                  fabricated orthotics, CMS should promulgate regulations to implement the
                  BIPA payment requirements.
                  Ensure That Suppliers Maintain Delivery Documentation That
                  Meets Federal Requirements
                  CMS should ensure that suppliers are aware of their responsibility to
                  maintain delivery documentation. CMS should consider aiming its
                  education efforts at suppliers of custom-fabricated orthotics other than
                  medical supply companies and individual practitioners because these
                  “other” practitioners and suppliers (e.g., physicians, physical and
                  occupational therapists, podiatrists, and orthopedic surgeons) are most
                  likely to lack required delivery documentation. CMS could accomplish
                  this by educating suppliers that they must meet certain standards,
                  including maintaining delivery documentation.
                  Take Action To Address Inappropriately Allowed Claims
                  Identified in the Population Related to Payment Edits and in
                  Our Sample Related to Delivery Documentation
                  We will provide information regarding the claims inappropriately allowed
                  in the population related to payment edits and in our sample related to
                  delivery documentation to CMS in a separate memorandum.

                  AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                  RESPONSE
                  In its comments, CMS concurred with all three recommendations. In
                  response to the first recommendation, CMS stated that it is developing
                  proposed regulations to implement the BIPA payment requirements. In
                  response to the second recommendation, CMS stated that it will direct the
                  NSC to disseminate educational material about maintaining delivery
                  documentation on its Web site and through other media as appropriate. In
                  response to the final recommendation, CMS indicated that it will
                  investigate our finding of inappropriate payments for claims paid to
                  suppliers that did not meet the specialty requirements, and it will
                  determine the need to strengthen the exiting claims processing edit, or
                  establish a new edit, to ensure proper payment of claims. See Appendix G
                  for the full text of CMS’s comments.
                  We did not make any changes to the report based on the CMS’s comments.




CMS Has Not Promulgated Regulations To Establish Payment Requirements (OEI-07-10-00410)      17
                  APPENDIX A
                  Table A-1: States That License Prosthetists and Orthotists

                  Does State License                                                                                                     Number of
                                                                                                                           States
                  Prosthetists and Orthotists?                                                                                              States


                                                                 Alabama, Arkansas, Florida, Georgia, Illinois, Mississippi,
                  Yes                                            New Jersey, Ohio, Oklahoma, Rhode Island, Tennessee,                          13
                                                                                                      Texas, Washington


                                                                     Alaska, Arizona, California, Colorado, Connecticut,
                                                            Delaware, District of Columbia, Hawaii, Idaho, Indiana, Iowa,
                                                                        Kansas, Kentucky, Louisiana, Maine, Maryland,
                                                               Massachusetts, Michigan, Minnesota, Missouri, Montana,
                  No                                                                                                                            38
                                                            Nebraska, Nevada, New Hampshire, New Mexico, New York,
                                                                   North Carolina, North Dakota, Oregon, Pennsylvania,
                                                                 South Carolina, South Dakota, Utah, Vermont, Virginia,
                                                                                      West Virginia, Wisconsin, Wyoming

                       Total:                                                                                                                   51

                 Source: Office of Inspector General analysis of States’ licensing of prosthetists and orthotists, 2011.




CMS Has Not Promulgated Regulations To Establish Payment Requirements (OEI-07-10-00410)                                             18
                  APPENDIX B
                  Specialty Codes Listed in Transmittal 656
                  Transmittal 656 updated the Medicare Claims Processing Manual to
                  require that, in those States that license prosthetists and orthotists, only
                  claims for prosthetics and custom-fabricated orthotics from suppliers with
                  the following specialty codes be paid: 40
                       •   Medical supply company with orthotics personnel—specialty
                           code 51;
                       •   Medical supply company with prosthetics personnel—specialty
                           code 52;
                       •   Medical supply company with prosthetics and orthotics
                           personnel—specialty code 53;
                       •   Orthotics personnel—specialty code 55;
                       •   Prosthetics personnel—specialty code 56;
                       •   Prosthetics personnel, orthotics personnel, and pedorthists
                           (i.e., practitioners who design and fabricate therapeutic
                           shoes)—specialty code 57;
                       •   Physical therapist—specialty code 65;
                       •   Occupational therapist—specialty code 67; and
                       •   Any Medicare physician specialty code, as listed in § 10.8.2 of
                           chapter 26 of the Medicare Claims Processing Manual. 41




                  40
                     Centers for Medicare & Medicaid Services, Medicare Claims Processing Manual
                  (Internet-only manual), Pub. No. 100-04, ch. 20, § 130.1.
                  41
                     In addition, Transmittal 656 contains a list of Healthcare Common Procedure Coding
                  System codes for prosthetics and custom-fabricated orthotics that are subject to the
                  payment edits defined in the transmittal.


CMS Has Not Promulgated Regulations To Establish Payment Requirements (OEI-07-10-00410)                   19
                                     APPENDIX C
Table C-1: Detailed Sampling Design and Response Rates

                                                                                                Average
                                                                                                                                      Number of           Response
                                                                    Total Claims in          Payment per          Claims in
Stratum                 Provider Type          Dollar Amount                                                                      Nonresponding                 Rate
                                                                        Population            Population            Sample
                                                                                                                                  Sample Claims*        (Percentage)
                                                                                                  Claim

                        Medical Supply
1                                                      $1–$960                 21,299                  $570                80                  4 (4)               95.0
                           Companies

                        Medical Supply
2                                                    Over $960                  8,364                $1,530                65                  2 (0)               96.9
                           Companies

3              Individual Practitioners                $1–$930                 42,829                  $557              110                   0 (0)              100.0

4              Individual Practitioners              Over $930                 14,743                $1,510              110                   1 (1)               99.1

5                    Other Practitioners               $1–$740                 52,321                  $338                95                  3 (1)               96.8

6                    Other Practitioners             Over $740                  9,756                $1,265                60                  3 (1)               95.0

     Total orthotics                                                         149,312                   $677              520                 13 (7)                97.5

                        Medical Supply
7                                                    $1–$1,400                 14,866                  $454                45                  3 (1)               93.3
                           Companies

                        Medical Supply
8                                                  Over $1,400                 13,599                $2,857              120                   0 (0)              100.0
                           Companies

9              Individual Practitioners              $1–$1,360                 34,592                  $445                50                  0 (0)              100.0

10             Individual Practitioners         $1,361–$4,250                  33,120                $2,681              235                   2 (0)               99.1

11             Individual Practitioners            Over $4,250                  2,285                $6,257                50                  0 (0)              100.0

12                   Other Practitioners                      All              10,023                $1,128              115                   1 (0)               99.1

     Total prosthetics                                                       108,485                 $1,617              615                   6 (1)               99.3

     Total overall                                                           257,797                 $1,072            1,135                 19 (8)                98.3

* The first value is the number of claims for which practitioners and suppliers did not respond. The number in parentheses indicates how many of the nonresponding
claims were from practitioners and suppliers that did not receive requests because they were associated with ongoing Office of Inspector General (OIG) investigations.
Source: OIG analysis of Medicare-allowed claims for prosthetics and custom-fabricated orthotics, 2011.




              CMS Has Not Promulgated Regulations To Establish Payment Requirements (OEI-07-10-00410)                                                  20
                  APPENDIX D
                  Specialty Codes for All “Other” Practitioners and Suppliers
                  We selected a stratified random sample totaling 1,135 claims. The sample
                  had 12 strata based on specialty code and allowed dollar amounts. We
                  defined the following groups of specialty codes for use in stratification:
                  medical supply companies (specialty codes 51–53), individual
                  practitioners of prosthetics and orthotics (specialty codes 55–57), and all
                  “other” practitioners and suppliers. The specialty codes of the “other”
                  practitioners and suppliers that were in our sample appear below.
                  01—General practitioner
                  02—General surgery
                  08—Family practice
                  20—Orthopedic surgery
                  35—Chiropractic
                  40—Hand surgery
                  41—Optometry
                  48—Podiatry
                  54—Medical supply company not included in specialty codes 51–53
                  65—Physical therapist
                  67—Occupational therapist
                  70—Single or multispecialty clinic or group practice
                  77—Vascular surgery
                  87—All other suppliers (e.g., drugstores)
                  99—Unknown physician specialty
                  A0—Hospital
                  A5—Pharmacy
                  A6—Medical supply company with respiratory therapist
                  B2—Pedorthic personnel




CMS Has Not Promulgated Regulations To Establish Payment Requirements (OEI-07-10-00410)    21
                                  APPENDIX E
Table E-1: Actions Taken That Limit Who Can Be Paid for Prosthetics and Custom-Fabricated
Orthotics

                                                 Legal Basis

                         Statutory Payment        Supplier Standard
 Date                                                                  Quality Standards                           Additional Information
                                Prohibition                42 CFR §
                                                                       SSA § 1834(a)(20)
                        SSA* § 1834(h)(1)(F)            424.57(c)(1)


                                                                                             (1) Section 427(a) of BIPA added subsection
                    Medicare, Medicaid, and                                                         (F) to SSA § 1834(h)(1), the payment
                          SCHIP** Benefits                                                           prohibition for prosthetics and certain
                          Improvement and                                                                      custom-fabricated orthotics.
                     Protection Act of 2000
                            (BIPA) enacted:                                                 (2) Section 427(b) of BIPA provided that “[n]ot
                                                                                           later than 1 year after the date of enactment of
 December                (1) adding payment                                                    this Act, the Secretary of Health and Human
 21, 2000                       prohibition at                                               Services shall promulgate revised regulations
                           1834(h)(1)(F), and                                                          to carry out the amendment made by
                                                                                              subsection (a) using a negotiated rulemaking
                  (2) mandating issuance of                                                     process under subchapter III of chapter 5 of
                    regulations within 1 year                                              title 5, United States Code.” However, to date,
                            using negotiated                                                the Centers for Medicare & Medicaid Services
                         rulemaking process                                                       (CMS) has not promulgated regulations to
                                                                                                                    implement this provision.

                                                                                            CMS established the Negotiated Rulemaking
                                                                                           Committee on Special Payment Provisions and
                                                                                               Requirements for Prosthetics and Certain
                                                                                             Custom-Fabricated Orthotics. 67 Fed. Reg.
                                                                                               48839 (July 26, 2002). According to that
                                                                                              notice, the first meeting for the negotiated
                  First scheduled negotiated                                                   rulemaking committee was scheduled for
 October 1,
                       rulemaking committee                                                                           October 1–3, 2002.
 2002
                                    meeting
                                                                                              In an earlier notice of intent to establish the
                                                                                             negotiated rulemaking committee at 67 Fed.
                                                                                                Reg. 13297, 13300 (Mar. 22, 2002), CMS
                                                                                                stated that “[i]f the committee is unable to
                                                                                           reach consensus, we will proceed to develop a
                                                                                                                             proposed rule.”

                                                                                            In 68 Fed. Reg. 38269 (June 27, 2003), CMS
                  Final scheduled negotiated                                                    scheduled the final negotiated rulemaking
 July 14,
                       rulemaking committee                                                     committee meeting for July 14, 2003, and
 2003
                                    meeting                                                stated that the “Committee does not anticipate
                                                                                                         the need for additional meetings.”
 *Social Security Act.
 **State Children’s Health Insurance Program.




            CMS Has Not Promulgated Regulations To Establish Payment Requirements (OEI-07-10-00410)                            22
 Table E-1: Actions Taken That Limit Who Can Be Paid for Prosthetics and Custom-Fabricated Orthotics
 (continued)
                                                       Legal Basis

                           Statutory Payment            Supplier Standard                                                   Additional Information
Date                                                                         Quality Standards
                                  Prohibition                    42 CFR §
                                                                             SSA § 1834(a)(20)
                          SSA § 1834(h)(1)(F)                 424.57(c)(1)

                                                                                                               Section 302(a) of MMA added SSA §
                                                                                                     1834(a)(20), requiring the Secretary of Health
                                                                                                             and Human Services (the Secretary) to
                                                                                                      establish and implement quality standards for
                                                                                                           Durable Medical Equipment, Prosthetics,
                                                                                                    Orthotics, and Supplies (DMEPOS) suppliers to
                                                                                       Medicare
                                                                                                            be applied by independent accreditation
                                                                              Prescription Drug,
                                                                                                         organizations. It also requires suppliers to
                                                                              Improvement, and
                                                                                                        comply with the quality standards to furnish
                                                                              Modernization Act
December 8,                                                                                              items set forth in 1834(a)(20)(D), including
                                                                                 of 2003 (MMA)
2003                                                                                                  prosthetic devices, orthotics, and prosthetics,
                                                                                enacted, adding
                                                                                                            and to receive or retain their provider or
                                                                                 supplier quality
                                                                                                                                  supplier numbers.
                                                                             standards at SSA §
                                                                                    1834(a)(20).
                                                                                                     SSA § 1834(a)(20)(E) permits the Secretary to
                                                                                                       establish the quality standards “by program
                                                                                                          instruction or otherwise” and requires the
                                                                                                         standards to be “published on the Internet
                                                                                                    website of the Centers for Medicare & Medicaid
                                                                                                                                          Services.”


                       CMS issued Transmittal
                         329, Change Request
                       3373, entitled “DMERC*
                             Only - Payment to
                           Providers/Suppliers
                      Qualified to Bill Medicare
October 22,         for Prosthetics and Certain
2004                        Custom-Fabricated
                                      Orthotics.”

                        The effective date was
                          July 1, 2005, but the
                     transmittal was rescinded
                              before that date.


                               CMS rescinded
November 23,
                      Transmittal 329, Change
2004
                                Request 3373.

                              In its semiannual                                                           CMS included a Notice of Proposed Rule
                      regulatory agenda, CMS                                                                Making to implement 427 of BIPA in its
                              stated that it was                                                     semiannual regulatory agenda at 69 Fed. Reg.
December 13,         considering issuance of a                                                      73119, 74268 (Dec. 13, 2004), with a timetable
2004                              proposed rule                                                     date of July 2005. That date was postponed in
                    implementing the payment                                                        other Federal Register documents (see e.g., 70
                         prohibition at § 427 of                                                           Fed. Reg. 26817, 26871 (May 16, 2005)
                            BIPA by July 2005.                                                               (postponing date to November 2005)).

*Durable Medical Equipment Regional Carrier (DMERC).




            CMS Has Not Promulgated Regulations To Establish Payment Requirements (OEI-07-10-00410)                                   23
Table E-1: Actions Taken That Limit Who Can Be Paid for Prosthetics and Custom-Fabricated Orthotics
(continued)
                                             Legal Basis

                      Statutory Payment       Supplier Standard                                                         Additional Information
Date                                                                   Quality Standards
                             Prohibition               42 CFR §
                                                                       SSA § 1834(a)(20)
                     SSA § 1834(h)(1)(F)            424.57(c)(1)

                                                      CMS issued                                       Acknowledging the “absence of national
                                                  Transmittal 656,                                Medicare payment policy regarding who may
                                                 Change Request                                      bill and be paid for prosthetics and certain
                                                3959, entitled “Full                              custom-fabricated orthotics,” Transmittal 656
                                                  Replacement of                                directed Durable Medical Equipment Medicare
                                                 Change Request                                     Administrative Contractors (DMEMACs) to
                                             3607, Payment Edits                                         implement payment edits in States that
                                              in Applicable States                                       license/certify orthotists or prosthetists,
August 19,                                           for DMEPOS                                effective October 1, 2005. This transmittal was
2005                                                  Suppliers of                                   based on the supplier standard at 42 CFR
                                                   Prosthetics and                             424.57(c)(1), requiring suppliers to comply with
                                                            Certain                             all applicable Federal and State licensure and
                                               Custom-Fabricated                                                         regulatory requirements.
                                                Orthotics, Change
                                                  Request 3607 is                                     Transmittal 656 also revised Chapter 20,
                                               rescinded (DMERC                                          section 130.1 of the Medicare Claims
                                                             only).”                                  Processing Manual, Pub. No. 100-04, to
                                                                                                                    address this payment edit.
                         In its semiannual
                 regulatory agenda, CMS
                        indicated that the
October 31,      proposed rule that would                                                                      See 70 Fed. Reg. 64553, 64623
2005                   have implemented                                                                                      (Oct. 31, 2005).
                 section 427 of BIPA was
                          “[w]ithdrawn” on
                            June 28, 2005.
                                                                         CMS announced
                                                                       that it had deemed
May 25,                                                                         10 national
                                                                                                     See 72 Fed. Reg. 29326 (May 25, 2007).
2007                                                                           accreditation
                                                                         organizations for
                                                                                 DMEPOS.

                                                                                                Transmittal 236 added a new § 21.1 (entitled
                                                                                                       “DMEPOS Supplier Accreditation”) to
                                                                                                Chapter 10 of the Medicare Program Integrity
                                                                                                    Manual, Pub. No. 100-08, providing that:

                                                                                                 (1) on or after March 1, 2008, new DMEPOS
                                                                                               suppliers must be accredited before submitting
                                                                                                        an application to the National Supplier
                                                                                                                         Clearinghouse (NSC);
                                                                             CMS issued
                                                                         Transmittal 236,      (2) DMEPOS suppliers that enrolled for the first
February 1,                                                              Change Request                time with NSC between January 1 and
2008                                                                       5892, entitled          February 28, 2008, must obtain and submit
                                                                              “Update to                  evidence of accreditation to NSC by
                                                                            Chapter 10.”                                    January 1, 2009;

                                                                                                        (3) DMEPOS suppliers that enrolled in
                                                                                                      Medicare prior to January 1, 2008, must
                                                                                                  provide evidence of accreditation to NSC by
                                                                                                                    September 30, 2009; and

                                                                                                       (4) NSC shall revoke a supplier’s billing
                                                                                                    privileges if the supplier fails to obtain and
                                                                                                    submit required evidence of accreditation.




          CMS Has Not Promulgated Regulations To Establish Payment Requirements (OEI-07-10-00410)                                    24
Table E-1: Actions Taken That Limit Who Can Be Paid for Prosthetics and Custom-Fabricated Orthotics
(continued)

                                            Legal Basis

Date                  Statutory Payment      Supplier Standard                                                    Additional Information
                                                                  Quality Standards
                             Prohibition              42 CFR §
                                                                  SSA § 1834(a)(20)
                     SSA § 1834(h)(1)(F)           424.57(c)(1)


                                                                                          Section 154(b) of MIPPA added subparagraph
                                                                                                                (F) to SSA 1834(a)(20):

                                                                                             (1) requiring suppliers furnishing items and
                                                                                         services on or after October 1, 2009, directly or
                                                                                           as a subcontractor for another entity, to have
                                                                             Medicare
                                                                                                    submitted evidence of accreditation;
                                                                    Improvements for
                                                                         Patients and
                                                                                         (2) stating that eligible professionals (as defined
                                                                      Providers Act of
                                                                                                 at SSA 1848(k)(3)(B)) and other persons
                                                                        2008 (MIPPA)
                                                                                          specified by the Secretary are exempt from the
July 15,                                                              enacted, adding
                                                                                              accreditation deadline, unless the Secretary
2008                                                                              SSA
                                                                                                 determines that the quality standards are
                                                                     § 1834(a)(20)(F),
                                                                                                     specifically designed to apply to such
                                                                   requiring suppliers
                                                                                                           professionals and persons; and
                                                                  to provide evidence
                                                                   of accreditation by
                                                                                               (3) allowing the Secretary to exempt such
                                                                     October 1, 2009.
                                                                                            professionals and other persons specified by
                                                                                          the Secretary from the accreditation deadline if
                                                                                                 the Secretary determines that licensing,
                                                                                                accreditation, or other mandatory quality
                                                                                           requirements apply to such professionals and
                                                                                                                                persons.


                                                                                              This final guidance (the “DMEPOS Quality
                                                                                                                         Standards”) is at
                                                                                                 http://www.cms.gov/Medicare/Provider-
                                                                    CMS issued final
                                                                                                                         Enrollment-and-
                                                                    guidance entitled
                                                                                         Certification/MedicareProviderSupEnroll/Downl
                                                                    “Durable Medical
                                                                                         oads/DMEPOSAccreditationStandardsCMB.pdf
                                                                         Equipment,
October
                                                                         Prosthetics,
2008                                                                                     Appendix C of the DMEPOS Quality Standards
                                                                       Orthotics, and
                                                                                            is entitled “Custom Fabricated and Custom
                                                                            Supplies
                                                                                          Fitted Orthoses, Prosthetic Devices, External
                                                                  (DMEPOS) Quality
                                                                                            Breast Prostheses, Therapeutic Shoes and
                                                                          Standards”
                                                                                           Inserts, and their Accessories and Supplies;
                                                                                              Custom-Made Somatic, Ocular and Facial
                                                                                                                           Prostheses.”


                                                                      CMS issued a
                                                                   document entitled             This document lists the 10 accreditation
                                                                     “Medicare New              organizations and refers to the DMEPOS
                                                                           Deemed                           Quality Standards document.
                                                                       Accreditation
                                                                   Organizations For                               This document is at:
May 4,
                                                                        Suppliers of             http://www.cms.gov/Medicare/Provider-
2010
                                                                    Durable Medical                                    Enrollment-and-
                                                                        Equipment,       Certification/MedicareProviderSupEnroll/Downl
                                                                        Prosthetics,     oads/DeemedAccreditationOrganizationsCMB.
                                                                       Orthotics and                                               pdf
                                                                           Supplies
                                                                       (DMEPOS).”




           CMS Has Not Promulgated Regulations To Establish Payment Requirements (OEI-07-10-00410)                            25
Table E-1: Actions Taken That Limit Who Can Be Paid for Prosthetics and Custom-Fabricated Orthotics
(continued)

                                                      Legal Basis

Date                      Statutory Payment             Supplier Standard                                                               Additional Information
                                                                                  Quality Standards
                                 Prohibition                     42 CFR §
                                                                                  SSA § 1834(a)(20)
                         SSA § 1834(h)(1)(F)                  424.57(c)(1)
                                                                                                                   Transmittal 710 identified the following as
                                                                                                                being exempt from the September 30, 2009,
                                                                                                                                      accreditation deadline:

                                                                                                                 (1) eligible professionals (as defined at SSA
                                                                                                                  1848(k)(3)(B)), including, but not limited to,
                                                                                                                           physicians, physical therapists, and
                                                                                                                                   occupational therapists; and
                                                                                         CMS issued
                                                                                     Transmittal 710,
                                                                                                              (2) specified “other persons,” including, but not
                                                                                     Change Request
                                                                                                                         limited to, orthotists and prosthetists.
                                                                                       6566, entitled
                                                                                                                     (See Attachment A of Transmittal 710.)
                                                                                       “Guidance on
                                                                                       Implementing
                                                                                                                If a supplier is not exempt from accreditation,
May 21,                                                                              System Edits for
                                                                                                                 Transmittal 710 directs DMEMACs to deny a
2010                                                                                  Certain Durable
                                                                                                                      supplier’s claim for Healthcare Common
                                                                                              Medical
                                                                                                              Procedures Coding System (HCPCS) codes in
                                                                                          Equipment,
                                                                                                                     Attachment C if the supplier has not been
                                                                                          Prosthetics,
                                                                                                             identified by NSC as being accredited to supply
                                                                                       Orthotics, and
                                                                                                               the specific product/service. This requirement
                                                                                             Supplies
                                                                                                                  applies to claims with dates of service on or
                                                                                         (DMEPOS)”
                                                                                                                                             after July 6, 2010.

                                                                                                                          Transmittal 710 states that edits for
                                                                                                              accreditation will begin by “phasing in a limited
                                                                                                                  number of product categories and HCPCS
                                                                                                                         codes, as listed in Attachment C….”
                                                                                                                  Attachment C does not include orthotics or
                                                                                                                                                   prosthetics.
Source: Office of Inspector General analysis of actions taken that limit who can be paid for prosthetics and custom-fabricated orthotics, 2012.




           CMS Has Not Promulgated Regulations To Establish Payment Requirements (OEI-07-10-00410)                                                 26
                       APPENDIX F
Table F-1: Point Estimates, Sample Sizes, and Confidence Intervals

Estimate Description                                      Sample Size                     Point Estimate           95-Percent Confidence Interval

Estimates Related to Practitioner and Supplier Qualifications

Percentage of claims that were furnished and
fabricated by qualified providers as defined in
the Medicare, Medicaid, and SCHIP* Benefits                       1,116                               97.3                                  96.2–98.1
Improvement and Protection Act of 2000 (BIPA)
in 2010
Total claims for items furnished by practitioners
and/or fabricated by practitioners or suppliers
that were licensed, certified, or accredited per                  1,116                           246,081                       242,668.5–249,494.2
the BIPA definition of qualified practitioners or
qualified suppliers in 2010
Payments for claims for items furnished by
practitioners and/or fabricated by practitioners
or suppliers that were licensed, certified, or                    1,116                 $259,998,432.51         $253,578,219.90–$266,418,645.12
accredited per the BIPA definition of qualified
practitioners or qualified suppliers in 2010

Estimates Related to Delivery Documentation

Payments for claims that did not meet Federal
                                                                  1,116                      $13,588,310                  $10,162,404–$17,014,217
requirements for delivery documentation

Percentage of claims that did not meet Federal
                                                                  1,116                               11.6                                   9.5–14.2
requirements for delivery documentation

Percentage of prosthetics claims that did not
meet Federal requirements for delivery                              609                                 4.0                                   2.2–7.1
documentation
Payments for prosthetics claims that did not
meet Federal requirements for delivery                              609                        $4,771,226                    $2,388,422–$7,154,030
documentation
Percentage of custom-fabricated orthotics
claims that did not meet Federal requirements                       507                               17.2                                  13.9–21.2
for delivery documentation
Payments for custom-fabricated orthotics
claims that did not meet Federal requirements                       507                        $8,817,084                   $6,355,564–$11,278,605
for delivery documentation

Percentage of claims that lacked beneficiary
                                                                  1,116                                 8.3                                  6.4–10.8
signatures on delivery documentation

Percentage of claims that lacked any
                                                                  1,116                                 3.3                                   2.1–5.1
documentation to support delivery

Payments for claims that lacked beneficiary
                                                                  1,116                        $9,354,658                    $6,487,930–12,221,386
signatures on delivery documentation

Payments for claims that lacked any
                                                                  1,116                        $4,233,652                    $2,190,121–$6,277,183
documentation to support delivery

Source: Office of Inspector General (OIG) analysis of Medicare-allowed claims for prosthetics and custom-fabricated orthotics, 2011.

*State Children’s Health Insurance Program, now referred to as CHIP.




CMS Has Not Promulgated Regulations To Establish Payment Requirements (OEI-07-10-00410)                                                27
Table F-2: Point Estimates and Confidence Intervals Related to Delivery Documentation
by Supplier Specialty
                                                                                                                           95-Percent Confidence
Estimate Description                                            Sample Size                  Point Estimate
                                                                                                                                         Interval
Percentage of claims from “other” practitioners and
suppliers of custom-fabricated orthotics lacking                          149                             40.1                              31.8–49.1
delivery documentation
Percentage of claims from medical supply
companies providing custom-fabricated orthotics                           139                              3.2                                1.3–8.0
lacking delivery documentation
Percentage of claims from individual practitioners
providing custom-fabricated orthotics lacking delivery                    219                              0.2                               0.03–1.6
documentation
Percentage of claims from “other” practitioners and
suppliers of prosthetics lacking delivery                                 114                             10.5                               6.1–17.6
documentation
Percentage of claims from medical supply
companies providing prosthetics lacking delivery                          162                              1.2                                0.4–3.7
documentation

Percentage of claims from individual practitioners
                                                                          333                              4.1                                1.8–9.3
providing prosthetics lacking delivery documentation

Source: OIG analysis of Medicare-allowed claims for prosthetics and custom-fabricated orthotics, 2012.



Table F-3: Chi Square Analysis on Delivery Documentation and Claim Type

Claim Type Compared                     Group A          Group B         Wald Chi-Square           F-Test Degrees of
                                                                                                                                            P-Value
(Group A vs. Group B)                      Rate             Rate            Test Statistic                 Freedom


Prosthetics vs.                                                                                        numerator = 1
                                              4.0             17.2                       36.1                                               <0.0001
Custom-Fabricated Orthotics                                                                       denominator = 1104
Source: OIG analysis of Medicare claims data and supplier documentation, 2012.




Table F-4: Chi Square Analysis on Delivery Documentation and Practitioner and Supplier
Specialty

Practitioner and Supplier                                                      Wald
                                        Group A          Group B                            F-Test Degrees of          Bonferroni       Unadjusted
Specialties Compared                                                     Chi-Square
                                           Rate             Rate                                    Freedom            Threshold*          P-Value
(Group A vs. Group B)                                                  Test Statistic

Medical Supply Companies
                                                                                                numerator = 1
vs. “Other” Practitioners and                 3.2             40.1                61.1                                     0.01667           <0.0001
                                                                                            denominator = 284
Suppliers
Individual Practitioners vs.
                                                                                                Numerator = 1
“Other” Practitioners and                     0.2             40.1                79.6                                     0.01667           <0.0001
                                                                                            Denominator = 364
Suppliers
*We did not plan on statistically testing whether “other” practitioners and suppliers were more likely to lack required delivery documentation than
medical supply companies and individual practitioners, but we saw this through exploratory data analysis. Consequently, we included a Bonferroni
correction to account for this in the two comparisons above to keep our confidence level for these comparison tests at 95 percent. For the percentages
for the groups compared to be considered statistically different at the 95-percent confidence level, the unadjusted p-values need to be less than the
Bonferroni Threshold of 0.05/3 = 0.01667.
Source: OIG analysis of Medicare claims data and supplier documentation, 2012.




CMS Has Not Promulgated Regulations To Establish Payment Requirements (OEI-07-10-00410)                                                28
                     APPENDIX G
Agency Comments




 C
 l                                                                                             AAmilli~ thltur
                                                                                               w..~~>~M       nc x:r.&n



          DAltt 	          MJG 1 1 2lH!
          'fO:               &tiel R. Levin$>'m
                           ln~ t'!<!c\fll:   Ge.netal

          FROM: 	          ~-~ 'f"tll'l'~ 

                           Acting Adlt#!ni.mawr 


          SOOJJ.lCf: 	 Olliee oflr~ O<:!Wtld f0K1) Drn.fi Report; "CMS H~:~ No~ l'tottlcul~ated                       

                       ltcgul:;tfiOt\11 to Establish l1aym<:tlt Requirements 1\n P'mslheticsand Custum­

                           F~           ed Orthotks" (0 EI.07.ttl.-00410) 



          The Centet''l for Medicate & MedicaiJ Sc.rvices {CMSI appreciroes the         oPf!Qrtt~nit)   to re~ie and 

          i:X~UIInent oo                                                                                '(I
                           the Of(i dm.t\ ft!l<)l't entitled. "CM~ Has Not f'tl!l.nulgateJ Regul:utions Establislt 

          Payment Requirernmu ror l,'n>titbeti<..'Sarul {,utifOf!l·Fahrkated Onhntk:.."' Scction 4·27tn) ofthc: 

          Med1t"l!J"e, Medicaid, and State O tldnm Hmlt k hl-.;utuce Pt~g:rnm Bendll!> impti)Vill'l'Wnt ud 

          Pt~Jt-ection Act f>f ~!000 {BI Pi\) pt\>hi!~its Medicare tta;mmts fm fll'lhthcties and .cu:.too:~>· 

          fnhticate<J mtlt(>tics ttnlesl>. tht' items are {I) filtlll.sh¢<d hr a (ltullified pmctitiutl<':t. and I~} 

          fi1bfkured try citl-£1" a.quaiHicd prnclitiuru;r or a qualified 'IU~)pli er at a lhciifiy thm m~~-cts such 

          crilc:ria &.'>the &"\:rctacy detertrtil1¢i' ·appropru1 Ti'.cse qualifk,ali<ms tire htt<tlded lu prntet:l 

          I'IC'Iu:lidaries, promote lugh quality a tre. aoo .lia~:uuro Mctticare funds b) msurin that P!l!l)' 

          qualified indh•i<tuals and health cm-e organih:Kim:u• fttm!!lh Mcdiare itttt1s and service 


          The (:MS take!l :u:ri wdy ils rc>JX>nsibility to ~1 the Mediet~ re Tt'Utlt Funds and ensure that 

          IJ0)!1'tldlU mllilk to o ·ld:et~ IUld suwlim for ea.,~ health ~"!.\ ~rvi<;a 11re approprlalc and 

          c tstcnl wit!t Medicare J»(rcy CMS Is~ ~ the p~ t1f dt• •I ·~ p:rup;.t&ed ·              tivm to 

          implementlbe fUPA pmviMons. 


          As detai.~ in OI<J·, ~ C~-IS ha'.l tak¢fl atthm by Is-suing Tfmxsmiltal 656 (Chug.e Request
          3?59. issued on 1\Uitusl tq. ~I:JOS') n:nl$ttlittal 656 di&cecet the t.~~-----lt-------­
          ~;laims pr~,j n • eJi1 tQ ensme tlmt prof!Cf ~iting uf mat !l.·t~ daim ~in oe<lil' in tho!SC
          ~~~ w here prusthetics {II onhotits mu~l be provided by a li~ or ~ ified ot1bvt1~ {or
          rrosthetist Uwu ~tthout rcgulat                 in place. the rc;p<n1 ti;nmd that 91 ~rcent ufM~Icare­
          aJ.kl\\~ claim:> for p.rostbctk11 lflil'ld tl.l.<iW~U-fahricated ortltuli \\<'e«l (ot ifA:mi> 1\mlish\.-d by
          ! i~ . tmlftc<t m aeere~fi~ provi<Jer'$ ud ~$1~.:

           We apj'»'l:.'X': iah:; OlG' s eltoos In worldn& wilh CMS to help cftsute tlmt prosd>~k,-s tuld <U$1!»·         

           tiihric•w:d <Jttholics ® tt(l.t wntili~.~t to he vulnemhle to uln.l&e. Our respt1fH>e.'l: to tile ()JG 

           re\.~.WI              fotro:w. 





CMS Has Not Promulgated Regulations To Establish Payment Requirements (OEI-07-10-00410)                                       29
Agency Comments (continued)




CMS Has Not Promulgated Regulations To Establish Payment Requirements (OEI-07-10-00410)   30
Agency Comments (continued)




CMS Has Not Promulgated Regulations To Establish Payment Requirements (OEI-07-10-00410)   31
                  ACKNOWLEDGMENTS
                  This report was prepared under the direction of Brian T. Pattison, Regional
                  Inspector General for Evaluation and Inspections in the Kansas City
                  regional office, and Brian T. Whitley, Deputy Regional Inspector General.
                  Rae Hutchison served as the project leader for this study. Other Office of
                  Evaluation and Inspections staff from the Kansas City regional office who
                  conducted the study include Jordan Clementi and Michala Walker. Central
                  office staff who provided support include Kevin Farber, Scott Manley, and
                  Debra Roush.




CMS Has Not Promulgated Regulations To Establish Payment Requirements (OEI-07-10-00410)    32
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
